TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 More Management Information Is Needed to
                 Improve Oversight of Automated Collection
                          System Outbound Calls



                                           April 28, 2010

                              Reference Number: 2010-30-046




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    April 28, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – More Management Information Is Needed to
                                 Improve Oversight of Automated Collection System Outbound Calls
                                 (Audit # 200930009)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is effectively using the outbound call feature 1 on Automated Collection System (ACS)
 function cases. This audit was conducted as part of our Fiscal Year 2009 Annual Audit Plan and
 addresses the major management challenge of Tax Compliance Initiatives.

 Impact on the Taxpayer
 The predictive dialers (hereafter referred to as PD or Dialer) are automated calling technology in
 which the ACS places outgoing calls without an attending employee on the originating telephone
 line. Our review showed that 1) there is insufficient management information available about
 whether the PDs are effective in contacting taxpayers to resolve delinquent accounts, and 2) new
 receipt calling campaigns are run without prioritizing the cases within the new receipts. This
 may cause the IRS to not collect from taxpayer cases that have greater potential for increased
 revenue collection and may cause unfair burden on other taxpayers who pay their taxes.




 1
     See Appendix IV for a glossary of the terms.
                More Management Information Is Needed to Improve Oversight
                      of Automated Collection System Outbound Calls




Synopsis
At two ACS call sites, the IRS uses the PDs to make outgoing calls to taxpayers and third parties
regarding balance due accounts and return delinquency investigations. The PDs retrieve the
number to be dialed from ACS files that are downloaded to the call site’s PD calling database.
The Dialer then places the call to the taxpayer.
Our review showed that various issues may contribute to the PDs not currently being used to
their most effective and efficient capacity. Internal and external factors affect how many calls
and how often calls are generated to taxpayers using the PD technology. The internal factors
include balancing the ACS function workload and meeting set goals within the ACS function.
The external factors, beyond the IRS’ control, include unforeseen legislative changes to tax laws
that result in an increased number of taxpayers calling into the ACS.
ACS function management places a priority on answering incoming calls to meet their objective
in providing a high level of customer service to those taxpayers who call the ACS. As a result,
ACS function management attempts to balance the use of the PDs and other activities while
providing an adequate level of service to taxpayers who call in regarding compliance issues.
This has resulted in shutting down the Dialers at times and taking resources from outbound calls
and other activities to answer the increases in incoming calls.
The Dialers themselves can be counterproductive to ACS function level of service goals during
times of heavy call volumes. If incoming call volumes are already high, running the PDs has the
potential to increase them because if the Dialers leave an automated message for the taxpayer to
return the IRS’ call, there likely will be an increase in inbound calls from taxpayers returning
Dialer messages. Conversely, if the number of outbound calls is reduced, there will be fewer
inbound calls, which increase the ACS function’s ability to meet its level of service goals. If the
PDs make fewer contacts with taxpayers, there is the possibility of reduced collections and case
resolutions. However, there is a need for more information about the PDs’ effectiveness and
consequences on other program goals and responsibilities before making changes to existing
policies and procedures.
Although some information is captured about the number of outbound calls and the contacts
made, ACS function management does not collect sufficient data about the results of outbound
calls to determine whether the campaigns were successful. For example, ACS function
management does not regularly measure inbound calls that are a result of outbound calls or
compare campaign results. As a result, ACS function management is unable to analyze the
complete results of the PDs campaigns, thereby reducing management’s ability to manage and
evaluate outbound calls which could cause inefficient use of limited resources.
In addition, the ACS does not use pre-established risk scores and priority categories when first
selecting cases for the PDs to call during new receipt campaigns. Experience among collection
agencies and within the IRS is that new receipt cases have a greater likelihood to have more
                                                                                                   2
                     More Management Information Is Needed to Improve Oversight
                           of Automated Collection System Outbound Calls



current contact information and, therefore, could be more productive. However, when ACS
function management establishes the new receipt campaigns, they rely solely on the age of the
case without regard to risk scores or priority categories. Our review of ACS outbound calls data
from October 2006 through May 2009 showed that new receipt cases made up approximately
62 percent of the outbound calls. 2 As a result, some high-risk, high-priority cases with a greater
potential for increased revenue collection may be omitted while other low-risk, low-priority
cases with lesser collection potential may be worked first in new receipt campaigns.

Recommendations
We recommended that the Director, Campus Compliance Services, Small Business/Self-
Employed Division, and the Director, Compliance, Wage and Investment Division, collect
additional management information about outbound calls, including the identification of
PD-related incoming calls when taxpayers are responding to Left Call Back Messages, and
compare the results from the various campaigns. This management information should be
collected on a continuous basis and be similar for both operating divisions. In addition, the
Director, Campus Compliance Services, Small Business/Self-Employed Division, and the
Director, Compliance, Wage and Investment Division, should revise the case selection
criteria/process so that within the new receipts campaigns, those new cases having the highest
risk scores and highest priority categories are the first taxpayers selected for PD calls.

Response
IRS management agreed with our recommendations. Management in the Small Business/
Self-Employed and Wage and Investment Divisions will work together to collect additional
information about outbound calls and compare results from the various campaigns. In
January 2006, the IRS began the Consolidated Decision Analytics project to improve the case
selection criteria/process within the Inventory Delivery System. The initial selection models
were implemented in January 2009. Working with a contractor, the two impacted business
divisions, the Small Business/Self-Employed Division and the Wage and Investment Division,
began deliberations midyear in 2009 to maximize Consolidated Decision Analytics capabilities
to enhance ACS operations, including the PD Tool. Once the Consolidated Decision Analytics is
completed, a more advanced scoring engine will evaluate cases based on a comprehensive
compilation of internal and external data and route them to the most appropriate treatment
stream, including the PD, in priority order. The IRS is continuing its efforts to design related
business and technology improvements to ensure the expansion of Consolidated Decision
Analytics to ACS operations delivers the intended results. Management’s complete response to
the draft report is included as Appendix V.

2
    This is an average for both the Small Business/Self-Employed and Wage and Investment Divisions.
                                                                                                      3
               More Management Information Is Needed to Improve Oversight
                     of Automated Collection System Outbound Calls



Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                       4
                      More Management Information Is Needed to Improve Oversight
                            of Automated Collection System Outbound Calls




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Automated Collection System Activities Operate in a
          Shared Resource Environment......................................................................Page 3
          Better Management Information Is Needed to Measure the
          Success of Outbound Calls ...........................................................................Page 5
                    Recommendation 1:..........................................................Page 7

          Risk and Priority Are Not Considered During New Receipt
          Calling Campaigns........................................................................................Page 7
                    Recommendation 2:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Glossary of Terms................................................................Page 14
          Appendix V – Management’s Response to the Draft Report .......................Page 16
        More Management Information Is Needed to Improve Oversight
              of Automated Collection System Outbound Calls




                       Abbreviations

ACS              Automated Collection System
FY               Fiscal Year
IRS              Internal Revenue Service
PD               Predictive Dialer
SB/SE            Small Business/Self-Employed
W&I              Wage and Investment
                      More Management Information Is Needed to Improve Oversight
                            of Automated Collection System Outbound Calls




                                               Background

The Automated Collection System (ACS) 1 is a computerized system that maintains balance due
accounts and return delinquency investigations. ACS function employees use this system when
contacting delinquent taxpayers by telephone to collect unpaid taxes and secure tax returns.
When cases are issued to the ACS, the system analyzes the cases for addresses, telephone
numbers, and other characteristics. The system prints letters for mailing and assigns cases to the
proper team. Each team’s inventory is assigned one of four responsibilities: investigation,
contact, research, or support. Contact responsibilities include making outgoing calls to taxpayers
and third parties regarding balance due and return delinquency accounts and answering calls
from taxpayers.
The effectiveness and efficiency of the ACS function are critical for the Internal Revenue
Service’s (IRS) overall filing and payment results, as well as taxpayer attitudes toward tax
compliance, because of the large number of taxpayer accounts that it addresses each year. For
example, during Fiscal Year (FY) 2009, the ACS received approximately 4.6 million balance due
accounts, totaling almost $32 billion, and approximately 1.2 million return delinquency
investigations. During that same fiscal year, the ACS collected about $2.7 billion.
To make outgoing calls to taxpayers and third parties regarding balance due accounts and return
delinquency investigations, the Small Business/Self-Employed (SB/SE) and Wage and
Investment (W&I) Divisions’ Collection functions currently use predictive dialers (hereafter
referred to as PD or Dialer) to call taxpayers. This outbound calling technology places calls
without an attending ACS function employee on the originating telephone line. ACS function
management decides which taxpayers to call by using set guidelines and priorities organized into
campaigns. The system retrieves the number to be dialed from ACS files that are downloaded to
the call sites’ PDs calling databases. The Dialers then place the call to the taxpayer or third
party. Figure 1 shows what happens when the PD makes a call.




1
    See Appendix IV for a glossary of the terms.
                                                                                           Page 1
                 More Management Information Is Needed to Improve Oversight
                       of Automated Collection System Outbound Calls



                             Figure 1: Possible Results of PD Calls
  If the taxpayer answers:                  •   The ACS sends taxpayer information to
                                                an employee’s screen.
                                            •   ACS function employee works the case
                                                on the ACS.
                                            •   The PD marks the account so it will not
                                                call the taxpayer again during the
                                                campaign.
  If there is no answer, a busy signal,     •   The PD tracks the information and
  or the taxpayer hangs up:                     schedules a followup call.
                                            •   The PD sends the data to the ACS and
                                                the account is systemically moved to the
                                                next appropriate function.
  If there is an answering machine:         •   The PD leaves a message to call back.
                                            •   The Dialer sends data to the ACS and the
                                                account is systemically moved to the next
                                                appropriate function.
Source: IRS PD procedures.

There are two ACS call sites that make outbound calls. During FY 2008, the IRS used the
Dialers to attempt contacts with 846,293 individual taxpayers and 603,416 business taxpayers.
These attempts resulted in contacts (including leaving messages to call back) being made with
433,292 individual taxpayers and 327,898 business taxpayers. From October 2006 through
May 2009, approximately 90 percent of the contacts made consisted of leaving messages for
taxpayers to call back.
This review was performed at the SB/SE Division Headquarters in New Carrollton, Maryland,
and the Brookhaven Campus in Holtsville, New York, during the period April through
November 2009. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                            Page 2
                   More Management Information Is Needed to Improve Oversight
                         of Automated Collection System Outbound Calls




                                     Results of Review

Automated Collection System Activities Operate in a Shared
Resource Environment
As an important IRS point of contact for taxpayers who call in to resolve compliance issues, the
ACS function must manage its resources to ensure that telephone calls are answered timely and
appropriately. The employees who are trained to answer taxpayer calls have other
responsibilities including working correspondence inventory, performing research on accounts,
and making outbound calls. Figure 2 shows the amount of time ACS function employees
worked on various activities during FYs 2007, 2008, and 2009. 2
         Figure 2: Direct Time Spent by ACS Function Employees by Activity

                        Activity                    SB/SE Division              W&I Division

       Answering incoming calls                        62 percent                 74 percent
       Working correspondence inventory                35 percent                 24 percent
       and research on accounts
       Making outbound calls                            3 percent                  2 percent
       Total                                           100 percent               100 percent
      Source: ACS function management call data reports for the period October 2006 through May 2009.

ACS function management needs to balance having a fixed number of employees to accomplish
these activities while providing an adequate level of service to taxpayers who call in to resolve
compliance issues. Level of service is a statistic that measures the rate of attempted telephone
calls from taxpayers that are answered by the IRS. Since the level of service measures success in
answering incoming calls, ACS function
management makes it a priority and emphasizes
                                                           Employees who make outbound
inbound, as opposed to outbound, calls. Inbound            calls must also answer inbound
calls are the priority because customers are generally           calls from taxpayers
calling the ACS to help resolve their existing
delinquent accounts. Since October 2006, IRS
management has set the level of service goal at approximately 80 percent.


2
  FY 2009 data are from October 2008 through May 2009. These are the FY 2009 data available at the time of our
review.
                                                                                                        Page 3
                   More Management Information Is Needed to Improve Oversight
                         of Automated Collection System Outbound Calls



There are various factors, both internal and external, that affect how often and how many
resources management dedicates to the operation of
the PDs. The internal factors include balancing ACS
function workload to meet established goals within the        The number of inbound calls may
ACS function. The external factors, beyond the IRS’            be influenced by events beyond
                                                                    the control of the IRS.
control, include changes to tax laws that cause an
increase in the number of telephone calls by taxpayers
with questions about the changes. In turn, this affects how often the Dialers can be used. For
example, the W&I Division’s Dialer was shut down from March until August 2008, and the
SB/SE Division’s Dialer was shut down from May until August 2008 to address the unusually
high volume of incoming calls and questions generated by Congress passing many tax-related
laws regarding the economic downturn, including the economic stimulus checks sent to millions
of taxpayers. ACS function management needed to assign more resources to answering the
incoming calls instead of making outbound calls or performing other responsibilities. These
issues may contribute to the Dialers not being used to their most effective and efficient capacity.
The PDs have a maximum system capacity based on the number of site licenses. The SB/SE
Division PD call site has 75 software licenses, and the W&I Division PD call site has
76 software licenses. Combined, as many as 151 ACS function employees may be logged on the
Dialers at any one time to make outbound calls. Our review examined whether the software
licenses for the PDs were being fully used. We compared the number of employees logged into
the PDs during a campaign to the total licenses available. Figure 3 shows these utilization rates
for the SB/SE Division for FYs 2007, 2008, and 2009. 3 During that time period, we did not
identify any campaign in which all 75 SB/SE Division software licenses were fully used.
                    Figure 3: Utilization Rates for the SB/SE Division PD

                                                 Daytime                    Nighttime
                                            Utilization Rates            Utilization Rates

           FY 2007                              34 percent                   24 percent

           FY 2008                              18 percent                   10 percent

           FY 2009 4                            25 percent                   17 percent
         Source: Our analysis of SB/SE Division PD utilization rates for the period October 2006
         through May 2009.



3
  The data shown are only when the PD was turned on and are not a percentage of total resources. The
W&I Division does not track these data; therefore, we only reported the SB/SE Division data.
4
  FY 2009 data are from October 2008 through May 2009. These are the FY 2009 data available at the time of our
review.
                                                                                                        Page 4
                More Management Information Is Needed to Improve Oversight
                      of Automated Collection System Outbound Calls



Compounding the limited use of the PDs because of shared resources, the Dialers themselves can
be counterproductive to ACS function customer service goals during times of heavy call
volumes. If incoming call volumes are already high, running the Dialers has the potential to
increase the incoming calls because when the Dialers leave an automated message to return the
call, there will likely be an increase in inbound calls from taxpayers returning Dialer messages.
Conversely, if the number of outbound calls is reduced, there will likely be fewer inbound calls,
which increases the ACS function’s ability to meet its level of service goals.
The success of the PDs making outbound calls appears at odds with the ACS function’s level of
service goal. ACS function management considers a successful telephone contact as either
talking to the taxpayer directly, known as a Right Party Contact, or leaving a voicemail
requesting the taxpayer call back, known as a Left Call Back Message. When outbound calls are
more successful at contacting taxpayers, including leaving messages for the taxpayer to call
back, it may result in fewer employees being available
to make additional outbound calls because those same           Reducing the number of
employees may be needed to answer the resulting              outbound calls can improve
inbound calls from the successful contacts. When                level of service results.
outbound calls are less successful at contacting
taxpayers (or calls are not made), it may result in more
employees available to answer fewer inbound calls, which helps improve the level of service.
One of the major benefits of the PDs is the ability to contact many taxpayers in a reduced amount
of time. If the PDs are operating at a greater capacity, more delinquent and noncompliant
taxpayers will be contacted. If the PDs make fewer contacts with taxpayers, there is the
possibility of reduced collections and case resolutions. However, there is a need for more
information about the PDs’ effectiveness and consequences on other program goals and
responsibilities before making changes to existing policies and procedures. Therefore, we are
not making a recommendation at this time.

Better Management Information Is Needed to Measure the Success of
Outbound Calls
Although some information is captured regarding the number of outbound calls and the contacts
made, ACS function management does not conduct sufficient analysis on the results of outbound
calls to determine whether the campaigns were successful. Specifically, management does not
identify inbound calls that were received as a result of outbound calls, and the various campaigns
are not compared to identify efficiencies and highest success rates for variables such as the best
times to call and types of taxpayers to contact. Sound management practices dictate that
sufficient management information needs to be obtained to evaluate the effectiveness of a
program and allocate resources effectively.



                                                                                           Page 5
                   More Management Information Is Needed to Improve Oversight
                         of Automated Collection System Outbound Calls



ACS function management relies primarily on the call site reports to provide information related
to the PDs. These reports include information such as:
    •   Average talk time.
    •   Abandon rates.
    •   Cases assigned to the campaign.
    •   Calls attempted.
    •   Calls where there was no contact made.
    •   Calls where contact was made.
    •   Call back messages left during the call.
    •   Calls handled.
Figure 4 shows that from October 2006 through May 2009, the combined contact rates (contacts
per attempts) for the SB/SE and W&I Divisions ranged from 44 percent to 55 percent for all
outbound calls.
                          Figure 4: Contact Rates for Outbound Calls

                                             SB/SE Division               W&I Division
                                             Contact Rates                Contact Rates
           FY 2007                              44 percent                   50 percent
           FY 2008                              54 percent                   51 percent
           FY 2009 5                            55 percent                   52 percent
         Source: ACS function management call data reports for the period October 2006 through May 2009.

The overwhelming majority (approximately 90 percent) of contacts shown in Figure 4 were in
the form of Left Call Back Messages for both Divisions. However, when a taxpayer calls into
the ACS in response to a Left Call Back Message generated by a PD outbound call, the incoming
call is not identified as a PD-related call. As a result, the entire population of PD-related calls is
not being captured, making it difficult for ACS function management to analyze the complete
results of their Dialer campaigns. Management has limited information about PD-related call
backs, based on just two ad hoc analyses that they performed.




5
  FY 2009 data are from October 2008 through May 2009. These are the FY 2009 data available at the time of our
review.
                                                                                                        Page 6
                      More Management Information Is Needed to Improve Oversight
                            of Automated Collection System Outbound Calls



Call data are moved from the PDs to the ACS daily. Once the campaign is over, the data are
purged and no longer kept on the Dialers. However, there is no thorough analysis to:
       •   Compare PD campaigns.
       •   Determine the best times to call specific types of taxpayers (e.g., during the day/night,
           day of the week, week of the month, month/season of the year).
       •   Identify contact success rates by types of campaigns.
       •   Determine overall productivity.
Without sufficient management information, ACS function management’s ability to manage and
evaluate outbound calls is weakened. This could cause inefficient use of limited resources and
the possibility of missed opportunities to increase collections.

Recommendation
Recommendation 1: The Director, Campus Compliance Services, SB/SE Division, and the
Director, Compliance, W&I Division, should collect additional management information about
outbound calls, including the identification of PD-related incoming calls when taxpayers are
responding to Left Call Back Messages, and compare the results from the various campaigns.
This management information should be collected on a continuous basis and be similar for both
operating divisions.
           Management’s Response: IRS management agreed with this recommendation.
           Management in the Small Business/Self-Employed and Wage and Investment Divisions
           will work together to collect additional information about outbound calls and compare
           results from the various campaigns.

Risk and Priority Are Not Considered During New Receipt Calling
Campaigns
Experience among collection agencies and within the IRS is that new receipt cases have a greater
likelihood to have more current contact information and, therefore, could be more productive. In
July 2000, the IRS Commissioner directed ACS function management to run all new receipt
cases through the PD if a certain letter 6 had been issued to the taxpayer and a current telephone
number was present. As a result, both the SB/SE and W&I Divisions use the PDs to call
taxpayers with new ACS case receipts first.
The ACS classifies new receipts as cases in inventory during the current cycle. ACS function
management attempts to select new receipt cases as they come into the system regardless of the

6
    Letter 11, ACS Final Notice – Notice of Intent to Levy and Your Notice of a Right to a Hearing.
                                                                                                      Page 7
                     More Management Information Is Needed to Improve Oversight
                           of Automated Collection System Outbound Calls



type of case or dollar amount owed. Our review of ACS outbound call data from October 2006
through May 2009 showed that new receipt cases made up approximately 62 percent of all
outbound calls. 7 ACS function management informed us that neither Division selects all of their
new receipt cases for PD calls. For example, the SB/SE Division’s FY 2009 goal for new receipt
cases processed through the Dialer was 50 percent. ACS function management considers
inventory and resource factors in determining how many new receipt cases will be processed
through the Dialers and then runs other campaigns focusing on the different types of case
inventories.
Collection function inventory, including ACS function inventory, is generally managed by the
Inventory Delivery System to select and deliver workload. The Inventory Delivery System
assigns a risk and priority code to all cases that are assigned to the ACS. These priority codes
are based on information including, but not limited to, the dollar amount owed, number of tax
periods, and age of the case. Risk scores of High, Medium, or Low are also given to each case.
According to the Internal Revenue Manual, high-risk and high-priority categories are considered
to be more productive. However, when ACS function management establishes their new receipt
cases PD campaigns, they rely solely on the age of the case without regard to risk scores or
priority categories.
As discussed previously in this report, ACS function management does not collect sufficient
information about the PD campaigns that would allow them to determine the relative
productivity for the different types of campaigns. Although new receipt cases may be
productive, some high- risk, high-priority cases with a greater potential for increased revenue
collection may be omitted while other low-risk, low-priority cases with lesser collection potential
may be worked if new receipt campaign cases are not prioritized. Not identifying and working
all high-risk, high-priority cases first may have the effect of reducing overall collection potential.
Because of the limited resources available in the ACS function, selecting and working these
cases first is especially important.

Recommendation
Recommendation 2: The Director, Campus Compliance Services, SB/SE Division, and the
Director, Compliance, W&I Division, should revise the case selection criteria/process so that
within the new receipt campaign cases, those new cases having the highest risk scores and
highest priority categories are the first taxpayers selected for PD calls.
Management’s Response: IRS management agreed with this recommendation. In
January 2006, the IRS began the Consolidated Decision Analytics project to improve the case
selection criteria/process within the Inventory Delivery System. The initial selection models
were implemented in January 2009. Working with a contractor, the two impacted business


7
    This is an average for both the SB/SE and W&I Divisions.
                                                                                              Page 8
                More Management Information Is Needed to Improve Oversight
                      of Automated Collection System Outbound Calls



divisions, the W&I and SB/SE Divisions, began deliberations midyear in 2009 to maximize
Consolidated Decision Analytics capabilities to enhance ACS operations, including the PD Tool.
Once the Consolidated Decision Analytics is completed, a more advanced scoring engine will
evaluate cases based on a comprehensive compilation of internal and external data and route
them to the most appropriate treatment stream, including the PD, in priority order. The IRS is
continuing its efforts to design related business and technology improvements to ensure the
expansion of Consolidated Decision Analytics to ACS operations delivers the intended results.




                                                                                       Page 9
                      More Management Information Is Needed to Improve Oversight
                            of Automated Collection System Outbound Calls



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS is effectively using the outbound call
feature on ACS 1 function cases. To accomplish this objective, we:
I.         Determined whether the outbound call feature is being effectively maximized.
           A. Analyzed the call trends to determine if the number of incoming versus outbound
              calls was appropriate.
               1. Determined ACS function’s priorities and goals for Fiscal Years 2008 and 2009
                  and whether they were met.
               2. Determined the breakdown of incoming versus outbound calls for various time
                  periods. We relied on statistical data provided by the IRS for this test. At the
                  time of our fieldwork, the data were available for October 2006 through
                  May 2009.
               3. Determined whether there were uncontrollable events, such as customer service
                  priorities and legislative changes, that affected how the system was used and how
                  the resources were allocated.
               4. Identified issues and concerns about the ACS function’s level of service.
           B. Identified if ACS function management tracked and measured what constitutes a
              successful outbound call.
               1. Determined how ACS function management measures successful calls.
               2. Determined if inbound calls, as a result of outbound PD calls, can be measured.
           C. Identified how and when campaign criteria were established and the process for
              implementing the campaigns.
           D. Determined if recent campaign objectives/criteria were achieved.
           E. Determined whether there are potential changes to call site locations and resources
              that could affect the ACS outbound calls such as adding a call site and hiring new
              employees.
           F. Performed research and interviewed IRS personnel to identify industry best practices.


1
    See Appendix IV for a glossary of the terms.
                                                                                              Page 10
                More Management Information Is Needed to Improve Oversight
                      of Automated Collection System Outbound Calls



II.    Determined how IRS management uses the PD technology to increase the effectiveness
       and efficiency of ACS function compliance programs.
       A. Reviewed current program plans, policies, procedures, and controls for use of the PD
          technology within the ACS function.
       B. Determined how specific program goals and objectives from Step. I. were
          implemented within the PD technology and how the technology helps achieve those
          goals.
       C. Determined if sufficient resources were allocated to achieve outbound calls and PD
          goals and objectives. We considered analytics such as the maximum number of
          employees the PDs are able to route outbound calls to at one time, at what rate these
          resources are being fully utilized, and the times resources are available. We relied on
          statistical data provided by the IRS for this test. At the time of our review, the data
          were available for October 2006 through May 2009.
III.   Assessed whether the IRS management information system provides reliable
       measurement and feedback to ensure that program results or business goals were
       achieved as intended. We relied on statistical data provided by the IRS for this test. At
       the time of our fieldwork, the data were available for October 2006 through May 2009.
       A. Determined if the IRS has an effective management information system to properly
          monitor and track PD outbound calls. We obtained management reports and other
          measurement results (e.g., PD calls answered) to identify the PDs’ effectiveness.
       B. Identified variables that were being tracked as well as performance measures and
          business results measurements or other outcomes that indicate successful operations.
          For example, were there reports that relate taxpayer contacts to subsequent case
          actions leading to case resolutions, and was there any reporting mechanism that
          compared the productivity of the Dialers and other ACS function efforts to resolve
          cases?
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the policies, procedures, measures, and
management information used to manage the ACS function. We evaluated these controls by
discussing with ACS function management the goals for outbound and inbound calls and for the
use of the PDs, and reviewing and analyzing various management reports and measures.



                                                                                          Page 11
               More Management Information Is Needed to Improve Oversight
                     of Automated Collection System Outbound Calls



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Lynn Wofchuck, Audit Manager
Julian O’Neal, Lead Auditor
Lynn Rudolph, Senior Auditor
Janis Zuika, Senior Auditor
Frank O’Connor, Audit Evaluator




                                                                                      Page 12
              More Management Information Is Needed to Improve Oversight
                    of Automated Collection System Outbound Calls



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Compliance, Wage and Investment Division SE:W:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                 Page 13
               More Management Information Is Needed to Improve Oversight
                     of Automated Collection System Outbound Calls



                                                                       Appendix IV

                          Glossary of Terms

Term                              Definition
Abandon Rates                     The number of taxpayers who voluntarily hang up
                                  before their calls are answered by the IRS.
Automated Collection System       A computerized system that maintains balance due
                                  accounts and return delinquency investigations of
                                  taxpayers who have not complied with previous
                                  notices.
Average Talk Time                 The time spent actually talking to the taxpayer over
                                  the telephone.
Calls Handled                     The number of telephone calls handled actually
                                  talking to the taxpayer.
Campaign                          A small, more manageable workload group used to
                                  help prioritize work to be completed that ACS
                                  function management has set guidelines for which
                                  taxpayers to call. For example, campaign types
                                  can be determined by dollar values, age of case,
                                  type of tax, etc.
Campus                            The data processing arm of the IRS. The campuses
                                  process paper and electronic submissions, correct
                                  errors, and forward data to the Computing Centers
                                  for analysis and posting to taxpayer accounts.
Contact Rate                      The number of Right Party Contacts and Left Call
                                  Back Messages as a percentage of total Dialer
                                  attempts.
Cycle                             One week.

Internal Revenue Manual           A manual containing the procedures and controls
                                  for IRS employees to follow.




                                                                                Page 14
             More Management Information Is Needed to Improve Oversight
                   of Automated Collection System Outbound Calls




Term                               Definition
Inventory Delivery System          An IRS Enterprise system that houses business
                                   rules used to analyze, assign, and deliver inventory
                                   to various Collection functions.
Left Call Back Message             Message left on an answering machine by the PD
                                   or Collection function representative directing the
                                   taxpayer or power of attorney to return the IRS’
                                   call.
Outbound Call Feature              The ACS Dialer that makes outbound calls to
                                   taxpayers’ telephone numbers.
Predictive Dialer                  The system of outbound calling technology in
                                   which calls are placed without an attending agent
                                   on the originating telephone line.
Return Delinquency Investigation   An investigation the IRS opens when a taxpayer
                                   does not file a return.
Right Party Contact                Actual contact with a taxpayer or power of
                                   attorney for the taxpayer.
Software License                   The IRS purchased a certain number of PD
                                   software licenses which limits the number of ACS
                                   function employees who can use the PD software
                                   simultaneously.




                                                                                  Page 15
    More Management Information Is Needed to Improve Oversight
          of Automated Collection System Outbound Calls



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 16
More Management Information Is Needed to Improve Oversight
      of Automated Collection System Outbound Calls




                                                     Page 17
More Management Information Is Needed to Improve Oversight
      of Automated Collection System Outbound Calls




                                                     Page 18
More Management Information Is Needed to Improve Oversight
      of Automated Collection System Outbound Calls




                                                     Page 19
